Memorandum from the Inspector General, ET 4C-K



February 13, 2006

Bill Baxter, WT 7B-K
Skila Harris, WT 7B-K

AUDIT 2006-013F – REVIEW OF TENNESSEE VALLEY AUTHORITY'S FISCAL
YEAR 2006 FIRST QUARTER FINANCIAL INFORMATION



The Tennessee Valley Authority (TVA) contracted with the independent certified public
accounting firm of PricewaterhouseCoopers LLP (PwC) to perform a review of TVA's
interim financial information for the first quarter of fiscal year 2006 in accordance with
Government Auditing Standards, which incorporate financial audit and attestation
standards established for nonpublic companies by the American Institute of Certified Public
Accountants. The objective of PwC's review was to provide a basis for communicating
whether any material modifications should be made to the interim financial information for
conformity with generally accepted accounting principles. The review was substantially
less in scope than would be required for the expression of an opinion on the financial
statements taken as a whole. Accordingly, PwC's review of TVA's interim financial
information did not provide a basis for expressing an opinion on TVA's financial statements.

Under the Inspector General Act, the Inspector General is responsible for taking
appropriate steps to assure any work performed by nonfederal auditors, including PwC,
complies with Government Auditing Standards. In keeping with these responsibilities, the
Office of the Inspector General (OIG) conducted an audit to determine whether PwC
performed its review in conformity with Government Auditing Standards. We reviewed
documentation of analytical procedures and inquiries performed by PwC, attended key
meetings during the review, and performed other procedures as we deemed appropriate
under the circumstances. Our review was performed in accordance with Government
Auditing Standards.

In summary, our review disclosed no instances where PwC did not comply, in all
material respects, with Government Auditing Standards. PwC was not required to, and
did not, issue a report on the results of its review; however, communications required by
Government Auditing Standards were made by PwC to appropriate parties, including
TVA's Board, OIG, and Chief Financial Officer.



Richard W. Moore

RLT:JP
cc: See page 2
Bill Baxter
Skila Harris
Page 2
February 13, 2006



cc: Mr. Michael (Casey) A. Herman
    PricewaterhouseCoopers LLP
    One North Wacker
    Chicago, Illinois 60606

    Ms. Diane Wear
    PricewaterhouseCoopers LLP
    2030 Falling Water Road, Suite 280
    Knoxville, Tennessee 37922

    Tom D. Kilgore, WT 7B-K
    Michael E. Rescoe, WT 7B-K
    Ellen Robinson, WT 7C-K
    Randy P. Trusley, WT 4B-K
    OIG File No. 2006-013F
